   Office of Inspector General
        Audit Report


   FAA LACKS A RELIABLE MODEL FOR
  DETERMINING THE NUMBER OF FLIGHT
STANDARDS SAFETY INSPECTORS IT NEEDS
       Federal Aviation Administration

        Report Number: AV-2013-099
         Date Issued: June 20, 2013
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Lacks a Reliable Model for                                            Date:    June 20, 2013
           Determining the Number of Flight Standards
           Safety Inspectors It Needs
           Federal Aviation Administration
           Report No. AV-2013-099

  From:    Jeffrey B. Guzzetti                                                            Reply to
                                                                                          Attn. of:   JA-10
           Assistant Inspector General
              for Aviation Audits

    To:    Federal Aviation Administrator

           FAA employs approximately 4,000 aviation safety inspectors and 40 analysts 1
           who play a key role in helping to maintain the United States’ remarkable air
           carrier safety record. However, the February 2009 Colgan Air crash highlighted
           potential weaknesses in FAA’s oversight of Part 121 2 air carriers, including
           concerns about whether FAA has enough inspectors. In October 2009, FAA
           introduced a new staffing model, known as the Aviation Safety Staffing Tool and
           Reporting System, to address concerns raised in a 2006 congressionally mandated
           National Research Council 3 (NRC) study. The NRC concluded that FAA had an
           ineffective method for identifying how many safety inspectors it needs and where
           they are most needed.

           In the Airline Safety and FAA Extension Act of 2010, 4 Congress directed our
           office to evaluate how FAA assigns inspectors to Part 121 air carriers, including
           assessing the number and experience levels of inspectors and analysts, and how
           inspectors use surveillance methods to supplement their regular inspections.
           Accordingly, our audit objectives were to (1) determine the status of FAA’s
           implementation of its new staffing model, (2) evaluate the process FAA uses to

           1
             Analysts support safety inspectors by analyzing air carrier and inspection data to identify risk areas and trends.
           2
             14 CFR Part 121, Operating Requirements: Domestic, Flag, and Supplemental Operations. Mainline air carriers are
           major airlines that generally operate aircraft seating 100 or more passengers. Regional air carriers are airlines that
           generally operate aircraft seating 99 or fewer passengers.
           3
             The National Research Council is the working arm of the National Academies of the U.S and is organized to associate
           the science and technology community with the purposes of increasing knowledge and advising the Federal
           government.
           4
             Public Law 111-216 (enacted 2010).
                                                                                                                     2


assess the number and level of experience of inspectors and analysts assigned to
each Part 121 carrier, and (3) evaluate FAA’s use of other surveillance processes
to supplement the inspections performed by assigned oversight offices.

We conducted this review in accordance with generally accepted Government
auditing standards. To conduct our work, we visited or contacted 28 FAA field
offices responsible for oversight of Part 121 air carriers in 8 FAA regions, the
FAA’s staffing model program office, budget and finance officials, and the
Research and Innovative Technology Administration’s Volpe Center (Volpe). 5 We
also reviewed documents obtained from both FAA and Volpe. Exhibit A details
our scope and methodology. Exhibit B lists the organizations we visited or
contacted.

RESULTS IN BRIEF
FAA established its inspector staffing model over 3 years ago; however, the model
is faulty—containing incomplete, inaccurate, and outdated data—and cannot be
relied on to determine the number and placement of inspectors needed. For
example, key data such as the number of hours worked per task by inspectors are
still based on outdated surveys rather than actual data. In addition, Volpe has faced
challenges in identifying which variables and formulas would best predict staffing
needs. Although FAA has conducted outreach sessions in field offices to
emphasize the importance of data quality, the Agency has not implemented a
comprehensive, aggressive strategy for obtaining accurate data or milestones for
effectively implementing the model. FAA’s problems in using its model are due in
part to the Agency’s failure to fully address all aspects of the September 2006
NRC recommendations, such as defining performance measures of the model’s
success, clearly identifying what work is not performed as a result of staffing
shortfalls, and obtaining inspector workforce buy-in. Despite these shortcomings,
FAA officials credit the model with providing better overall information on
current staffing (i.e., how many inspectors the Agency currently employs).
However, the model’s data deficiencies preclude FAA from reliably determining
how many inspectors it needs, where they are most needed, and whether the
Agency’s approach is cost effective.

Without a reliable inspector staffing model, FAA’s process for assessing the
number of inspectors and analysts assigned to each Part 121 air carrier does not
differ significantly from prior methods that the NRC deemed ineffective.
Currently, the Director of Flight Standards Service, with advice from a committee
of FAA managers known as the Human Capital Council (HCC), establishes

5
  The Volpe Center assists Federal, State, and local governments; industry; and academia in a number of areas,
including human factors research; system design, implementation, and assessment; strategic investment and resource
allocation; environmental preservation; and organizational effectiveness.
                                                                                                                           3


staffing levels for FAA regions. Regional Managers then place inspectors in
individual offices using processes that vary by region, which can lead to subjective
and inconsistent staffing decisions. In addition, FAA has not established a formal
method for determining the number of analysts needed to support FAA inspectors
assigned to a particular air carrier. As result, FAA cannot be assured that it is
consistently targeting inspector and analyst resources where they are most needed.

FAA supplements its regular inspections through its reinstated geographic
surveillance program. 6 While the geographic surveillance program is a helpful
oversight tool, we identified concerns that may undermine its success. For
example, inspectors expressed reluctance to participate in certain aspects of the
new geographic surveillance program because typically, inspectors in other offices
are not trained on the specific operations of their assigned air carrier. Additionally,
inspectors noted the cumbersome process of requesting assistance from other
offices through the program. Similar issues impacted FAA’s previous geographic
inspection program and ultimately led to its discontinuation—a risk that FAA
could face again.

We are making recommendations to enhance the effectiveness of FAA’s staffing
model and address training issues related to the geographic surveillance program.

BACKGROUND
FAA’s approximately 4,000 inspectors and analysts are located in 105 Certificate
Management Offices (CMO) and Flight Standards District Offices (FSDO) across
the country. 7 They are charged with oversight of all facets of aviation safety from
general aviation to air carrier operations. Inspectors overseeing Part 121 air
carriers are located in 44 CMOs and FSDOs that can be responsible for either one
air carrier or several smaller air carriers. As shown in table 1, inspectors’ oversight
covers a vast network of operators and functions.




6
  The Geographic Surveillance Program is the process through which FAA inspectors can request inspectors in other
offices to assist with surveillance of their assigned air carrier.
7
  Certificate Management Office inspectors are assigned the responsibility of monitoring the operations and
maintenance activities of major air carriers. Flight Standards District Office inspectors are responsible for monitoring
the safety of various types of aviation operators located in their assigned geographical area or district.
                                                                                      4


Table 1. FAA Flight Standards Inspectors’ Workload
Area of Oversight                                          Number Requiring
                                                                 Inspection
Part 121 Air Carriers                                                            89
Active Pilots                                                             747,959
Repair Stations                                                              4,825
Check Airmen*                                                                7,747
Flight Instructors                                                         97,398
FAA Designee Representatives**                                               3,689
Aircraft                                                                  210,463
FAA Licensed Mechanics and Repairmen                                      378,561
Source: FAA Aviation Safety Workforce Plan as of March 2012.
*Pilots employed by air carriers to evaluate pilot proficiency.
**Individuals authorized by FAA to perform certain safety functions on its behalf.

The 2003 Vision 100-Century of Aviation Reauthorization Act 8 directed the NRC
to conduct a study of the assumptions and methods used by FAA to estimate
staffing standards for FAA inspectors to ensure proper oversight of the aviation
industry. As required by the Act, the study was to include suggested modifications
or alternative approaches to FAA’s staffing model and to approximate the cost and
time of developing a modified or new staffing model. The 2006 NRC report 9
recommended that FAA completely overhaul its staffing model, known as the
Automated Staffing Allocation Model (ASAM). Specifically, the NRC found that
ASAM did not:

    • predict the consequences of staffing shortfalls;
    • account for some important factors affecting inspector workload, such as
      managing designees; 10 or
    • include validated data.

The NRC further recommended that a new staffing model not only possess the
attributes listed above, but also have the ability to project the number of inspectors
needed and where they should be located to sustain system performance. In
response, FAA contracted with Volpe to design a new staffing model and
established a goal to implement and begin using it by October 2009.




8
  Public Law 108-176 (enacted December 12, 2003).
9
  Staffing Standards for Aviation Safety Inspectors published September 2006.
10
   Individuals authorized by FAA to perform certain safety functions on its behalf.
                                                                                                                     5


FAA HAS NOT FULLY IMPLEMENTED ITS NEW STAFFING
MODEL DUE TO CONCERNS ABOUT ITS RELIABILITY
Although FAA introduced its inspector staffing model 11 in October 2009, FAA
has not fully relied on the model’s results because of continuing concerns with its
incomplete and inaccurate data. FAA has not successfully integrated key data that
would enhance the model’s accuracy. In addition, Volpe faced challenges in
identifying which variables and formulas would best predict inspector staffing
needs. Further, the model does not fully address all aspects of the September 2006
NRC recommendations in key areas, such as defining performance measures of
the model’s effectiveness and clearly identifying what inspections will not be
performed as a result of staffing shortfalls.

FAA’s Inspector Staffing Model Does Not Effectively Project Staffing
Needs or Support Budget Requests
FAA’s inspector staffing model does not yet produce accurate projections for
Flight Standards Service 12 staffing needs. Since 2009, FAA and Volpe have tried
to determine which data are most effective for predicting proper staffing levels and
how heavily they should be weighted in the model. However, the model is still
generating results that fluctuate significantly at the national, regional, and office
level. For example, as of January 2013, FAA has reported the results of the
staffing model six times since it was first established over 3 years ago, with each
iteration showing differing nationwide employee shortages. As shown in figure 1,
the model has projected employee shortages ranging from 389 to as high as 935. 13




11
   FAA’s staffing model is called the Office of Aviation Safety Staffing Tool and Reporting System (ASTARS).
12
   The model also projects staffing needs for other FAA organizations such as aircraft engineers. However, our review
focused on the Flight Standards Service.
13
   FAA determines a shortage or surplus based on the difference in the number of employees on-board and the number
of employees projected as necessary by the model at the time the model reports staffing needs. These differences do not
correlate directly to inspector attrition.
                                                                                             6


Figure 1. Model-Projected Employee Shortages
                                1000                                        935
                                                                   914
                                 900
                                 800

          Number of Employees    700                      646
                                 600
                                 500    463
                                                                                     430
                                                 389
                                 400
                                 300
                                 200
                                 100
                                   0
                                       Apr-10   Jan-11   Jul-11   Jan-12   Aug-12   Jan-13

       Source: OIG analysis of FAA data.

While FAA Headquarters officials stated the model is useful in accounting for
current staffing by providing them with data on the number of inspectors on board,
they are not yet confident in the model’s ability to accurately project staffing
needs. Therefore, FAA officials have not fully relied on the model’s projections
when justifying resource needs to Congress during the annual budget process. For
example, when FAA submitted its proposed budget for fiscal year 2012, FAA
requested 112 additional positions even though the staffing model projected a
shortage of 463. For fiscal year 2013, FAA did not request any additional
positions, even though the staffing model projected a shortage of 389 positions.

Incomplete and Inaccurate Data Impede FAA’s Staffing Model
Effectiveness
FAA’s difficulties with developing an accurate staffing model are due in part to
problems with incomplete and inaccurate data. FAA has attempted to identify data
that will enable the model to better predict staffing needs but faces challenges in
capturing accurate data in a format the model can use. Efforts to identify data
problems have been mostly ad hoc, without a comprehensive, documented
analysis of underlying reasons for differences between onboard and projected
staffing, or a timeline for corrective actions. As a result of these underlying data
concerns, wide fluctuations regarding the number of inspectors at the individual
office level are continuing to occur, as shown in table 2.
                                                                                                                           7


Table 2. Fluctuations in Model Projections for Staffing
Shortages and Overages, April 2010–January 2013
O f f i ce                        Ap r i l     Ja nu ar y         Jul y        Ja nu ar y       Au gu st         Ja nu ar y
                                  20 1 0         20 1 1           20 1 1         20 1 2          20 1 2            20 1 3
Ch ic ag o F SDO                     -6             -4              -7             - 30             - 34              -4
De l ta C MO                         -8            + 40            + 44            - 63             - 53            + 52
Am er ic a n CM O                   - 11           - 18             -9             - 84             - 86            + 22
S ac r am e nt o F S DO              -4             -7             - 11            - 13             - 13              -9

Note: Numbers in red indicate a projected staffing shortage, while numbers in black indicate an overage.
Source: OIG analysis of FAA data.

FAA officials stated that the large fluctuations in model results shown in the table
could be due to FAA electing not to backfill vacancies as they occurred (such as at
the Sacramento FSDO). Not backfilling vacancies reduces the number of staff
onboard, resulting in a change in the model’s projected staffing need. However,
based on our analysis of staffing data at this office, this only accounts for a portion
of the employee variance for this FSDO between April 2010 and January 2012.
Moreover, FAA’s cited cause does not explain all the fluctuations for other
offices. Rather, based on our analysis of FAA’s data, we found that these
fluctuations are attributable to a range of underlying data issues. For example:

   • Inaccurate and outdated line station data—Based on our analysis of FAA
     data, fluctuations in the model results for the Delta Certificate Management
     Office (CMO) were due to inaccurate data on the number of line stations. For
     example, FAA officials attributed the January 2011 model results—which
     indicated the Delta CMO was overstaffed by 40 positions—to significant
     underreporting on the number of line stations Delta served. According to FAA
     officials, misstating the number of line stations dramatically skews the number
     of positions an oversight office is projected to need. Although a critical
     attribute in determining staffing needs, the number of line stations can be
     difficult to keep current because destinations change frequently, particularly
     for small charter operators. Inspectors at 8 of 28 14 oversight offices we
     interviewed stated they did not remove line stations from a database used by
     the model when the carrier they oversee suspended service to that location.

   • Large fluctuations in model results following database updates—FAA’s
     staffing model program manager attributed the large fluctuations in model
     results for the Delta and American CMOs between July 2011 and January 2012
     to the model’s inability to handle large variations in data. These variations

14
   We selected a random sample of 30 out of 44 FAA field offices. However, during the course of our audit, oversight
responsibilities for two air carriers were transferred to other offices in our sample resulting in the need to visit only 28
offices.
                                                                                                                    8


      occurred as field office inspectors began updating FAA databases at the
      program office’s request. For example, the reported number of Delta
      maintenance locations with training records in FAA’s database increased by 56
      (431 percent) as a result of database updates. Also, FAA inspectors updated the
      reported number of pilots-in-command for American Airlines to reflect a
      decrease of 1,455 (30 percent). While FAA indicated that changes in the model
      results could be due to normal variations in the aviation landscape as carriers
      change their operations, the program manager stated that in this case inspectors
      had not updated the pilots-in-command figure in several years. FAA modified
      the model in December 2012 to account for these large variations in data.

     • Other database accuracy issues—Several databases 15 containing inspection,
       personnel, and air carrier statistical data feed into the model (see figure 2).
       However, even though FAA officials overseeing development of the model
       have reminded inspectors and office managers to ensure the accuracy of these
       databases, some data are still outdated, difficult to obtain, or inaccurate. For
       example, some data—such as the amount of time it takes inspectors to perform
       their work—are still based on outdated survey data obtained in 2008, instead of
       actual data. Additionally, some data, such as information on current on-board
       staffing, is obtained through a time consuming manual process that must be
       repeated each time the model is run.

Figure 2. Databases That Feed Into the Staffing Model

                                                  Web
                                                  OPPS        eVID


                                              PTRS
                                                               FPPS


                                                     ATOS




                                               Model Results



                              Simulations                                Model Report/Projections

          Source: OIG analysis of FAA data.



15
   Key databases currently feeding the model are the electronic Vital Information Database (eVID), which contains
statistics on air carriers such as the number of pilots and aircraft the carrier operates; the Program Tracking and
Reporting System (PTRS), which tracks certain inspection data input by FAA inspectors of non-Part 121 air carriers;
WebOps, which provides a current count of the number of Part 121 air carriers; Air Transportation Oversight System
(ATOS), which includes inspection data input by FAA inspectors of Part 121 air carriers; and Federal Personnel Payroll
System (FPPS), which provides data on current staffing.
                                                                                                                      9


     • A lack of key data on inspector labor hours and operations—In June 2011,
       FAA had planned to improve data quality by having its Labor Distribution
       Reporting (LDR) 16 system feed directly into the staffing model, which
       provides detailed information regarding inspector labor hours by task. FAA
       officials postponed those plans until they could collect 2 years of LDR data,
       and now expect to begin using LDR data in fiscal year 2014. However, Volpe
       representatives expressed concerns as to whether the LDR system contained
       the level of detail to significantly improve the model’s results. They also stated
       that a lack of quality data on how long it takes inspectors to perform their work
       is a significant shortcoming because such information is fundamental to the
       model’s precision. FAA has attempted to address this shortcoming, but so far
       has not been successful. Further, the model does not yet include key data on all
       of the work inspectors perform, such as designee management. 17 FAA officials
       told us that these functions are slated to be added to the model in the future, but
       the timing of that decision is unknown.

      According to Volpe representatives, an alternative and better source of data to
      support the model is the operations specifications for each Part 121 air carrier.
      These specifications provide the authorizations, limitations, and procedures an
      air carrier is subject to and include information on the number and type of
      aircraft operated, airports served, maintenance bases, and other data associated
      with each carrier. However, this information is maintained in a format that
      makes it unusable to the model. FAA officials stated that they have been
      working for 2 years to obtain access to the underlying data in a usable form
      and finally established an MOU in September 2012 to gain access. However,
      while Volpe officials are cautiously optimistic that this information would give
      them the data they need, it is too soon to determine whether it will produce a
      reliable model.

Despite these data shortcomings, FAA officials stated that the current staffing
model represents progress beyond previous models. Further, they credited the new
model with providing better overall information on current staffing, while calling
attention to problems with FAA databases that they had not previously discovered.

However, until these underlying data problems are resolved, the true staffing
needs of FAA offices will remain unknown. Of particular concern is the fact that
because FAA is not relying on the model’s results, a genuine problem with
understaffing may go unresolved. For example, the staffing model indicated that
one oversight office was understaffed by 34 inspectors. During our review, we
found that managers at this office generally agreed with the assessment that they
16
   Labor Distribution Reporting: A reporting system by which inspectors code their total time by work tasks/type of
work.
17
   For example, until recently, a procedure to tell the model to count the inspectors who oversee large helicopter
emergency medical service operators was inadvertently missing from the model.
                                                                                                                   10


needed more staffing. Safety inspectors at this office also agreed that they were
not able to conduct the number of inspections necessary to make comprehensive
risk assessments of their assigned carriers. Yet, because of the staffing model’s
overall unreliability, FAA has not reviewed the model fluctuations in detail and
determined whether there are instances of understaffing that may be accurate and
require an immediate staffing action to ensure safety.

Design Challenges Further Hinder the Development of a Reliable
Model
In addition to data inaccuracies, Volpe representatives expressed concerns with
developing the model in areas related to its key variables and design. They stated
that they are unable to effectively predict the frequency of surveillance activities at
the individual office level because each air carrier is unique in the amount and
type of oversight required. Further, they were concerned that some model
variables are too simplistic. For example, the model takes into account the total
number of aircraft flown by a given airline but not the number of different aircraft
fleets that make up the total.

FAA and Volpe will face additional challenges because of the need to adjust the
model to accommodate a new oversight system that FAA plans to implement in
fiscal year 2015. FAA is developing the Safety Assurance System (SAS) to
replace its current safety oversight system, the Air Transportation Oversight
System (ATOS). 18 SAS will include new inspection data collection tools that FAA
and Volpe will need to incorporate into the model. However, the change in model
data inputs could impact FAA’s ability to reliably determine inspector staffing
needs. Recognizing these concerns, FAA has formed a work group to study the
impact that SAS will have on its staffing model.

FAA’s Staffing Model Does Not Fully Address the Recommendations
of the National Research Council Report
Developing a comprehensive staffing model under tight timeframes is a difficult
challenge. Yet, over 3 years after its introduction, FAA’s model still does not fully
comply with the intent of key NRC recommendations that are critical to enhancing
the model’s success, such as analyzing costs and defining performance goals.
Despite these prolonged issues, FAA has not taken steps to reassess its approach.
The NRC recommendations not yet implemented include the following:

     • Conduct Detailed Cost Analyses. FAA has not yet performed a
       comprehensive analysis to determine the total cost to operate, upgrade, and
       maintain the new staffing model. The NRC report strongly recommended FAA
       conduct a cost-benefit analysis, during the design phase, to determine what the

18
     ATOS is FAA’s mechanism to conduct safety inspections and provide regulatory oversight of Part 121 air carriers.
                                                                                  11


   Agency was willing to invest to implement and maintain the model versus
   what it hoped to achieve with the model. While NRC estimated developing a
   model would cost between $900,000 and $1.2 million, according to FAA, the
   Agency has spent at least $9.9 million. Further, FAA’s estimates of the cost to
   maintain the model range between $1.8 million and $2.2 million per year.

 • Define Performance Measures. FAA has not yet established system and
   individual performance measures to evaluate the effectiveness of the model for
   items such as a comprehensive list of duties an inspector performs, including
   their priority. While the NRC report recommended performance measures be
   developed at the outset of the process, the staffing model program manager
   said FAA just recently began developing them.

 • Identify the Consequences of Staffing Shortfalls. The model cannot quantify
   the consequences of understaffing, which was also a major weakness in FAA’s
   previous staffing model. Without this metric, FAA managers cannot measure
   the impact of one staffing choice versus another so that they can better
   prioritize staffing decisions. FAA officials stated that a new simulation module
   implemented in July 2012 identifies activities that are not being accomplished.
   However, the new module only identifies the number of hours that are not
   covered with current staffing, not specific work activities. Volpe
   representatives said identifying the consequences of staffing shortfalls will
   require FAA to rank all inspector duties in order of importance, something that
   the Agency has not yet done.

 • Obtain Management Buy-In at Field Offices. While FAA officials
   responsible for the model at Headquarters have conducted field outreach
   sessions on the importance of data accuracy, we found that field personnel still
   do not understand the impact of inaccurate data on the model’s staffing
   determinations. This is further hindered by FAA’s limited training of office
   managers, which currently consists only of an online course. FAA Flight
   Standards Headquarters officials cited the initial instructor-led training offered
   to field office managers in 2009 as adequate. However, since then, managers
   promoted after the 2009 class are forced to rely on the online course, which is
   less comprehensive.

ASSESSING THE NUMBER AND EXPERIENCE LEVEL OF
INSPECTORS CONTINUES TO BE A CHALLENGE FOR FAA
Without a reliable staffing model, FAA’s process for determining the appropriate
number of inspectors to assign to Part 121 air carriers remains largely unchanged
from prior ineffective methods and varies across offices. Similarly, FAA has not
yet established a method for determining how many analysts are needed to support
                                                                                                              12


the inspector workforce. Finally, levels and types of experience for inspectors
varied between mainline and large cargo and regional and other Part 121 air
carriers.

FAA’s Processes for Assigning Inspectors Are Inconsistent and
Largely Unchanged From Past Efforts
Due to shortcomings in the staffing model’s ability to project accurate staffing
needs, FAA’s process for determining the appropriate number of inspectors to
assign to Part 121 air carriers remains largely unchanged from prior years. FAA
regions and field offices vary in the extent to which they use regional staffing
committees and older models and guides. As a result, FAA cannot be assured that
it is consistently targeting inspector resources where they are most needed.

FAA’s primary staffing allocation decisions are made by the Director of Flight
Standards after consulting with a national committee of FAA managers known as
the Human Capital Council (HCC). The HCC meets to determine regional staffing
needs, and sends its recommendations to the Flight Standards Director. The
Director establishes and disseminates staffing levels for FAA regions to regional
office managers. Regional Managers then place inspectors in individual offices
using processes that vary by region, which can lead to subjective staffing
decisions. HCC members and regional office managers told us they use the
staffing model results as a guide to compare overall numbers across regions and
offices, but were not using the results to determine where to place inspectors due
to a lack of confidence in the model’s projections.

At 15 of 28 field offices we visited, managers were still using unreliable processes
to determine staffing needs. These included referencing the 1825 Position
Classification Guide, commonly called the complexity guide, 19 a document that
FAA Headquarters officials told us should no longer be used to determine staffing
needs. 20 In 1995, FAA determined that the complexity guide methodology was
ineffective and subsequently created the ASAM model. However, according to the
2006 NRC report, ASAM was deficient as well. Thus, FAA’s reliance on previous
methods of staffing allocation limits the Agency’s awareness of its staffing needs
and consequently the outcomes of its staffing decisions.




19
   Complexity Guide: A position classification guide that determines grade levels for FAA safety inspectors and
justifies inspector grades based on specific characteristics ('complexity') of the assigned carrier.
20
   The NRC concluded that FAA determined in 1995 that using complexity points to make staffing decisions was not
effective.
                                                                                                                    13


FAA Inspectors’ Experience Levels Varied Between Regional and
Mainline Air Carriers
FAA has been able to attract candidates with aviation industry experience to fill
inspector positions for both mainline 21 and regional carriers. 22 Both types of
carriers reported that candidates had a high degree of Part 121 experience prior to
joining FAA. 23 Yet, we noted differences in FAA experience levels (i.e., tenure
with the Agency) between those offices responsible for oversight of mainline air
carriers compared with those responsible for regional or other air carriers.
Although the impact of these differences is unclear, we found that over 86 percent
of Principal Inspectors 24 of mainline air carriers have more than 10 years of
experience with FAA. In comparison, only 58 percent of Principal Inspectors of
regional and other air carriers have a similar level of Agency experience. In the
overall inspector ranks, 35 percent of inspectors at mainline air carriers have over
10 years of FAA experience. In contrast, at regional and other air carriers, the
number of inspectors with over 10 years of FAA experience is 14 percent. 25

One reason for the difference in FAA experience levels is that FAA inspectors
have greater promotion potential at offices that oversee mainline air carriers. For
example, these offices generally have Supervisory Principal Inspector positions
that offer a higher pay grade than Principal Inspector positions at oversight offices
for regional and other air carriers. FAA CMO officials told us that it can be
difficult to retain highly experienced non-principal inspectors for smaller carriers
when promotional opportunities arose at the larger mainline CMOs, as smaller
carrier certificates often do not meet complexity guide requirements to have
inspectors with the highest pay grades. Our interviews did not disclose concerns
on the part of office managers regarding this difference in FAA experience.
Nonetheless, ensuring that regional carriers have adequate coverage with
inspectors experienced in FAA requirements is critical because regional airlines
account for over half of all scheduled commercial passenger flights carrying
approximately 160 million passengers annually.



21
   Mainline Part 121 air carriers typically operate aircraft with more than 100 passenger seats or operate large numbers
of cargo aircraft.
22
   Regional and other Part 121 air carriers typically operate aircraft with fewer than 100 passenger seats or small
numbers of large passenger or cargo aircraft.
23
   Sixty percent of inspectors we surveyed who are assigned to an office with oversight responsibility for a mainline
Part 121 air carrier had also been employed by a mainline Part 121 air carrier for 10 or more years prior to their
employment with FAA. Likewise, 59 percent of inspectors assigned to offices with oversight responsibility for regional
or other Part 121 carriers said they had 10 or more years of service with a mainline Part 121 carrier prior to joining
FAA.
24
   For each air carrier, FAA assigns three lead inspectors, called principal inspectors (one for each of the three major
areas of specialization--operations, maintenance, and avionics). Within FAA, principal inspectors have the primary
responsibility for ensuring their assigned air carrier complies with the Federal Aviation Regulations.
25
   Our results are based on a survey of Part 121 air carrier inspectors. The survey was distributed to 816 inspectors at
the 28 FAA offices we visited or contacted. We received 501 responses for a response rate of 61.3 percent.
                                                                                                   14


FAA Lacks a Formal Process for Assigning and Training Analysts
FAA has also not established a formal method to determine staffing allocations for
analysts, who are assigned to support FAA safety inspectors of all Part 121 air
carriers by analyzing air carrier and inspection data to identify risk areas and
trends. Analysts for large Part 121 air carriers are typically dedicated to that
carrier, while analysts for small Part 121 air carriers are usually a shared resource
among more than one FAA safety inspector team. We found a single analyst can
be responsible for up to 18 carriers, while other analysts were only assigned a
single air carrier and had assistance from other analysts. These disparities may
result in some analysts not being properly utilized in their safety oversight roles.

In addition, FAA does not have a formal training program for analysts, which
hinders their ability to create and distribute advanced reports, including predictive
analysis identifying potential hazards and trends. All of the 19 analysts we
interviewed expressed concern with their training, including delays in training
after being hired, a limited number of classes, and a lack of training on ATOS. For
example, one analyst we interviewed did not receive any training for over
6 months after being hired, and two others had only taken two classes in 2 ½
years. This affects analysts’ ability to assist inspectors to their fullest capabilities
and hampers analyst development as the aviation industry they help to oversee is
constantly evolving.

FAA’S SUPPLEMENTAL SURVEILLANCE PROCESSES CAN
ENHANCE OVERSIGHT IF USED EFFECTIVELY
In 2010, FAA reinstated a geographic surveillance program to provide a greater
level of oversight of air carriers’ airport locations served by Part 121 and 135 26
operators that have had minimal surveillance coverage in the past. FAA offices
can accomplish additional oversight through the geographic surveillance program
by using their own inspectors or by requesting assistance from other offices.
Eighty percent of the inspections performed in the initial phase of the program for
Part 121 air carriers were conducted by inspectors assigned to the responsible
oversight office, while 20 percent of the inspections were conducted by inspectors
outside of the responsible oversight office.

Although supplemental inspection programs can be worthwhile, it is too soon to
determine if the new geographic surveillance program will be successful and
improve oversight. At 16 of 28 offices we visited, FAA inspectors and managers
raised concerns about the program, such as a lack of air carrier specific training for
inspectors outside their office. Air carrier-specific training for inspectors is

26
 14 CFR Part 135, On-Demand, Operating Requirements: Commuter and On Demand Operations and Rules
Governing Persons On Board Such Aircraft.
                                                                                  15


necessary because each Part 121 operator has unique procedures and operations.
Without a full understanding of the unique specifications of an operator, outside
inspectors may not be able to effectively identify safety deficiencies. Similar
issues negatively impacted FAA’s prior geographic program, and could put the
new program at risk if they are not carefully managed. For example:

 • Training—While FAA headquarters officials told us that training
   requirements are in place to ensure outside inspectors are aware of air carrier-
   specific requirements, these requirements are either unclear to inspectors or
   have been poorly communicated. In fact, of the 16 offices where inspectors
   expressed concerns with the geographic program, the most frequently cited
   issue by inspectors and managers was reluctance to use outside inspectors to
   perform surveillance work on their assigned carrier. Only 4 of the 28 offices
   we visited had requested assistance from an inspector outside of their office
   through the program.

 • Workload—Even inspectors from those offices that did request assistance
   found the program lacking and had concerns about continuing to support it.
   Specifically, inspectors and managers were concerned that geographic
   inspection requests from other offices would add to their workload or the
   requested work would not be completed. For example, one office requested
   assistance on 75 inspections, but less than half of the inspections were
   completed.

 • Request Process—FAA’s process for requesting assistance is cumbersome.
   All requests for surveillance assistance require the requesting office manager to
   compose a memo that must then go through three separate offices (see
   figure 3). This lengthy process makes it particularly difficult for inspectors for
   nonscheduled air carriers to use the program because there is not enough notice
   of where the aircraft to be inspected will be located.
                                                                                 16


Figure 3. Geographic Surveillance Program Request Process




Source: OIG analysis of FAA data.

FAA has created an automated tool to facilitate requests for assistance under the
new geographic program. Although automated, inspectors expressed concerns
because the underlying issues remain the same.

FAA also bolsters its inspection program through the use of en-route inspections.
En-route inspections involve an inspector conducting surveillance aboard an
aircraft while in operation. All the inspectors we spoke with agreed that en route
inspections—which FAA has always used to supplement its inspector resources—
are a very valuable tool for surveillance. This surveillance method allows
inspectors to observe how documented procedures are actually implemented into
airline operations. It also allows inspectors to continue to work while traveling to
distant locations to conduct other scheduled inspections. While there were some
minor concerns over air carrier procedural training and administrative issues for
en-route inspectors, we did not find significant concerns regarding Part 121
inspectors performing en-route inspections.
                                                                                  17


CONCLUSION
FAA’s inspector workforce plays a fundamental role in ensuring the safety of our
nation’s aviation system. Accordingly, a reliable staffing model that best targets
risk and identifies where inspectors are needed most is key to FAA’s sustained
safety record. Correcting shortcomings with the model will be critical to address
staffing vulnerabilities that could impede effective oversight.

RECOMMENDATIONS
To enhance the effectiveness of FAA’s staffing model and its geographic
surveillance program, we recommend that FAA:

1. Develop a plan with milestones to address the model’s shortcomings and
   regularly report progress relative to plan milestones.

2. Conduct and document a variance analysis of each model’s results and assess
   staffing at field offices where the on-board staffing level varies widely from
   the current model projection to verify if immediate staffing action is needed in
   the interest of safety.

3. Verify inspectors are following existing guidance to update and maintain the
   accuracy of databases prior to running iterations of the staffing model.

4. Conduct a comprehensive assessment of the staffing model as compared to the
   NRC recommendations, assess the quality of the data in the model, and
   identify the steps needed to make the staffing model more viable.

5. Implement comprehensive and recurrent training for managers and inspectors
   on the staffing model.

6. Establish a comprehensive analyst training program with guidance clarifying
   their roles, responsibilities, and training needs, and establish a method to
   determine an appropriate number of air carriers per analyst.

7. Clarify requirements and develop a process to ensure completion of training on
   specific air carrier policies and procedures for inspectors who participate in the
   geographic surveillance program.
                                                                                18


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FAA on March 27, 2013, and received its
response on June 14, 2013, which is included as an appendix to this report. FAA
concurred with six of our seven recommendations and partially concurred with
one. FAA’s proposed actions are generally responsive to our recommendations,
and we consider recommendations 2 through 6 resolved but open pending
completion of planned actions. Additionally, while we consider recommendation 5
resolved, we will assess results of the training review scheduled for January 2014
to determine whether improvements meet the intent of our recommendation.
However, we are requesting that the Agency provide additional information for
recommendation 1 and reconsider its response to recommendation 7, as detailed
below.

Specifically, FAA requested that recommendation 1 be closed, stating that its
ASTARS plan meets the intent of our recommendation. Although FAA attached
an overview of this plan with its response, the attachment does not include a
detailed schedule with milestones, and instead states that the schedule for
completion is contained on an internal FAA Web site. Accordingly, we are
requesting that FAA provide information on the schedule in order for us to
validate that the plan fully meets the intent of our recommendation.

For recommendation 7, FAA cited the development of a new oversight system—
the Safety Assurance System (SAS)—which the Agency states will enable
requesting offices to provide inspectors with supporting documentation that will
enhance their geographic inspection activities. We agree that these new
capabilities will meet the intent of our recommendation. However, FAA does not
plan to deploy SAS until 2015. Given the concerns with geographic inspector
training and workload that we identified in our review, we believe FAA should
issue interim guidance to inspectors who participate in the geographic surveillance
program prior to the deployment of SAS. Therefore, we request that FAA
reconsider its response and provide additional planned interim actions to address
our concerns.

ACTIONS REQUIRED
We consider recommendations 2 through 6 resolved but open pending completion
of planned actions. For recommendations 1 and 7, we request that FAA either
provide additional information or reconsider its position as described above. In
accordance with Department of Transportation Order 8000.1C, we request that
FAA provide this additional information within 30 days of this report.
                                                                            19


We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Robin Koch, Program Director, at (404) 562-3770.

                                      #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                    20



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. We conducted this review between May 2011 and
March 2013 using the following methodology.

To obtain information about FAA’s staffing model and to determine its status, we
met with FAA Flight Standards officials including the manager of FAA’s staffing
model program office as well as FAA budget and finance officials. We also
interviewed analysts at the John A. Volpe National Transportation Systems Center
in Cambridge, MA, to obtain information regarding its role in the development of
the staffing model. We examined the NRC’s 2006 report and recommendations for
FAA’s staffing model and compared those to what had been developed.

We interviewed 50 certificate management teams across 28 FAA field offices and
8 regional offices. We selected a random sample of 30 out of 44 FAA field offices.
However, during the course of our audit, oversight responsibilities for two air
carriers were transferred to other offices in our sample resulting in the need to visit
only 28 offices. We spoke with inspectors, principal inspectors, office managers,
and analysts to obtain their insight into staffing and hiring policy and procedures,
inspector experience levels, the staffing model, and use of other surveillance
processes that supplement regular oversight. We compared and contrasted the
staffing needs expressed at the field office level to the staffing projections for that
office generated by the model. We also interviewed regional office managers
regarding these same issues.

In addition, we collected examples of data at each office that fed into staffing
model, and analyzed differences in how they were updated across offices and thus
affecting model outputs. We examined the amount of oversight work done at each
carrier and investigated whether the model was consistent in recognizing needs
across offices overseeing different carrier certificates. We also compared the
organizational structure and staffing methods used across offices and regions.

With the assistance of Team SAI, an air transportation consulting firm, we
conducted a survey of FAA inspectors at the 28 field offices we interviewed
assessing inspector grade, education, and experience levels. We distributed the
survey to 816 inspectors responsible for oversight of Part 121 air carriers at the 28
FAA offices we visited or contacted. We received 501 responses for a response
rate of 61.3 percent.


Exhibit A. Scope and Methodology
                                                                              21



We also met with representatives from the Professional Airways Safety Specialists
(PASS) to discuss their views on the staffing model, and FAA Human Resources
and Aviation Careers personnel to obtain information about FAA hiring processes.




Exhibit A. Scope and Methodology
                                                                    22



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
Federal Aviation Administration

Headquarters
FAA Headquarters                                Washington, DC
Mike Monroney Aeronautical Center               Oklahoma City, OK

Certificate Management Offices
Airtran CMO                                     Orlando, FL
Alaska CMO                                      SeaTac, WA
American Airlines CMO                           Forth Worth, TX
Atlanta CMO                                     Hapeville, GA
Delta Air Lines CMO                             Atlanta, GA
Denali CMO                                      Anchorage, AK
FedEx CMO                                       Memphis, TN
Honolulu CMO                                    Honolulu, HI
Phoenix CMO                                     Phoenix, AZ
Portland CMO                                    Hillsboro, OR
South Florida CMO                               Miramar, FL
Southwest Airlines CMO                          Irving, TX
United Airlines CMO                             Daly City, CA
UPS CMO                                         Louisville, KY
U.S. Airways CMO                                Coraopolis, PA

Flight Standards District Offices
Albany FSDO                                     Latham, NY
Baltimore FSDO                                  Glen Burnie, MD
Boston FSDO                                     Lexington, MA
Charlotte FSDO                                  Charlotte, NC
Chicago FSDO                                    Des Plaines, IL
Dallas/Ft. Worth FSDO                           Forth Worth, TX
Indianapolis FSDO                               Plainfield, IN
Las Vegas FSDO                                  Las Vegas, NV
Memphis FSDO                                    Memphis, TN
Minneapolis FSDO                                Minneapolis, MN
Sacramento FSDO                                 Sacramento, CA
St. Louis FSDO                                  St. Ann, MO
Washington FSDO                                 Herndon, VA




Exhibit B. Organizations Visited or Contacted
                                                                   23


Regional Offices
Alaska Region                                   Anchorage, AK
Central Region                                  Kansas City, MO
Eastern Region                                  Jamaica, NY
Great Lakes Region                              Des Plaines, IL
Northwest Mountain Region                       Renton, WA
Southern Region                                 College Park, GA
Southwest Region                                Forth Worth, TX
Western-Pacific Region                          Lawndale, CA

Other Organizations / Administrations

John A. Volpe Center                            Cambridge, MA
Professional Airways Safety Specialists         Washington, DC




Exhibit B. Organizations Visited or Contacted
                                                           24



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Robin Koch                              Program Director

Marshall Jackson                        Project Manager

Mark Perrill                            Senior Analyst

R. Andrew Farnsworth                    Analyst

Ruth Foyere                             Analyst

James Ovelmen                           Analyst

Megha Joshipura                         Statistician

Audre Azuolas                           Writer-Editor




Exhibit C. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                     25




                   Federal Aviation
                   Administration

Memorandum
Date:                 June 14, 2013
To:                   Jeffrey B. Guzzetti, Director, Assistant Inspector General for Aviation and
                      Special Program Audits
From:                 H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:              Federal Aviation Administration’s (FAA) Response to Office of Inspector
                      General (OIG) Draft Report on FAA’s Inspector Staffing Model


The FAA fully understands the limitations of the current Aviation Safety Staffing Tool and
Reporting System (ASTARS) identified in the draft report and has been working to address
them. When the agency first created ASTARS, it planned to use the work count data contained
in the Vital Information System (VIS) and the Program Tracking and Reporting System (PTRS)
combined with times recorded in the Labor Distribution Reporting (LDR) database.
Unfortunately, experience has shown these data lacked sufficient fidelity for an inspector
staffing model. To address the data limitations Flight Standards (AFS) used a statistical
methodology for predicting the frequency of work performed.

This is the modeling effort that was reviewed by the OIG. During the review, the FAA
repeatedly stressed to the OIG team that the model under review was only an initial effort, and
was intended to be refined as the project matured. The OIG’s identification of incomplete,
inaccurate, and outdated data aligned with the issues FAA identified prior to the OIG’s review.
FAA had already initiated ongoing efforts to improve the accuracy of the pertinent FAA
databases. FAA is continuing its efforts to improve data quality, modify the databases for easier
data collection, and improve the guidance for keeping the databases as current and accurate as
possible.

The AFS portion of the model has been running for over three years with iterations completed
approximately every six months. We now have sufficient knowledge of the current model and
how it behaves and to implement further improvements in the accuracy of the databases feeding
the model. The next enhanced version of ASTARS is expected to be completed in December
2013.

While ASTARS is a primary tool, it is not the sole determinant of the number and placement of
inspectors. The FAA uses ASTARS for macro-level guidance, which must be further refined
with expertise and judgment from field, division, executive management, subject matter experts,
and the Human Capital Council (HCC) to finalize staffing decisions. While we agree that the
model reviewed by OIG has well-known and identified limitations, it is useful for developing

Appendix. Agency Comments
                                                                                                  26


useful input at the national and regional levels and will continue to improve over time as data
quality and model methodology evolves.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Develop a plan with milestones to address the model’s shortcomings and
regularly report progress relative to plan milestones.

FAA Response: Concur. The FAA has published an ASTARS plan which establishes: 1)
short and long-term goals (including model improvement; 2) tracks progress of completed
action items; 3) and sets an implementation schedule. Specifically, the plan addresses the data
quality issues that the OIG also found. The model results (quantitatively) are reviewed and
validated by subject matter experts and approved by management. This plan is available to all
ASTARS users and resides on a SharePoint site within Aviation Safety (AVS). The ASTARS
SharePoint site also includes information on aspects of the model where further improvement
opportunities have been identified, as well as proposed steps to make those improvements.
These steps are documented in minutes of the weekly development team meetings.

Regular reporting of our progress relative to the plan milestones is being accomplished through
review by AVS and Flight Standards Service (AFS) leadership at monthly business plan
reviews. A copy of the current ASTARS plan is attached to this response. The FAA believes it
has met the intent of this recommendation and requests that it be closed.

Recommendation 2: Conduct and document a variance analysis of each model’s results and
assess staffing at field offices where the on-board staffing level varies widely from the
current model projection to verify if immediate staffing action is needed in the interest of safety.

FAA Response: Concur. The ASTARS model runs semi-annually, typically in October and
April. Each time the model runs for a 90-day cycle. At the end of each cycle, a variance
analysis is conducted, documented and reported. Steps within each cycle include:
         1) Policy changes, legislative mandates, industry requests, and organizational changes
            are obtained and incorporated into the model prior to the release of the Online
            Manual Data Report (OMDR);
         2) AFS Field Office Managers accomplish an OMDR by validating on-board staff
            and forwarding it to their region for review;
         3) Regional Office and HQ Office Managers validate and forward OMDRs to the
            ASTARS Manager;
         4) The ASTARS Manager has 45 days to approve all OMDRs, run the model,
            conduct additional data validation (as needed), review preliminary model results,
            and publish official model results.
         5) Beginning with the June 2013 model results, the ASTARS workgroup will conduct
            a variance analysis comparing each model run with historical models to identify
            trends.




Appendix. Agency Comments
                                                                                               27


         6) Each variance analysis will include an in-depth assessment of field offices where
            the on-board staffing level varies widely from the current model projection.
            Findings and recommendations regarding immediate staffing actions will be
            reported to the Director of Flight Standards by the ASTARS Manager. Results
            from the variance analyses will be analyzed to determine needed modifications to
            model algorithms and parameters and additional data quality improvements.
            Findings and their associated fixes are incorporated into enhancements of the
            ASTARS model. These are documented and managed by the Configuration
            Control Board. These findings will be documented and maintained on the
            SharePoint site.

Recommendation 3: Verify inspectors are following existing guidance to update and
maintain the accuracy of databases prior to running iterations of the staffing model.

FAA Response: Concur. To ensure inspectors are following existing guidance, the FAA has
various data quality review mechanisms to assist with verification:
         1) For the Air Transportation Oversight System, the Data Evaluation Program
            Manager (DEPM) ensures data is of appropriate quality prior to being placed in the
            data repository. The DEPM conducts an ongoing audit of these data and works
            with Aviation Safety Inspectors (ASI) to correct or complete entries;
         2) National Program Guidelines Order 1800.56 requires internal audits for Federal
            Aviation Regulations (FAR) 135 and FAR 145 task completion data. Each region
            utilizes the standardized job task guidance created by the Flight Standards Quality
            Assurance Division to implement annual internal data quality audits; and
         3) Program Tracking and Reporting Subsystem and Operations Specifications
            Databases have internal automated data error flags that alert the ASI regarding
            some data inconsistencies.

Together, these activities provide useful verification of conformity with existing guidance. AVS
will further reemphasize the guidance and the need to ensure inspectors are in compliance with
this guidance in the briefings referenced below in response to recommendation 5.

Additionally, the FAA has various Orders in place to provide guidance to managers and
inspectors regarding the data quality expectations of each database of record. The following
excerpts are provided as examples:
“ASIs should report any errors, including instances of missing, inaccurate, or incomplete data, as
well as broken or improperly functioning SPAS capabilities to the AVS National IT Service
Desk.”
               [FAA Order 8900.1 Vol. 1, Chapter 3, Section 1, E. Error and Problem Reporting]

“[D]ata quality should be a primary focus for all offices. Accurate reporting in VIS is essential…
Managers and supervisors should establish and maintain an office environment conducive to
effective data quality control of the VIS.”
                                             [FAA Order 1380.54, Vital Information Subsystem]



Appendix. Agency Comments
                                                                                                28


The FAA believes it has met the intent of this recommendation and will seek closure once the
briefings have been completed in January 2014.

Recommendation 4: Conduct a comprehensive assessment of the staffing model as compared
to the recommendations of the NRC, assess the quality of the data in the model, and identify
the steps needed to make the staffing model more viable.

FAA Response: Concur. The FAA understands the need to document how ASTARS
compares with the National Research Council (NRC) recommendations. During the initial
development of ASTARS, AVS conducted a comprehensive page-by-page and paragraph-by-
paragraph review of the NRC’s report and recommendations. AVS used the NRC analyses to
build the requirements document for ASTARS, a part of the AVS SDLC process.

In order to ensure responsiveness to the recommendations of the NRC, the FAA Office of
Finance and Management ordered an independent assessment to review the ASTARS program’s
progress toward meeting the NRC recommendations. This assessment is underway and is
expected to be completed by December 31, 2013. The FAA will provide a copy of the
assessment and the plan to address the findings 90 days after receiving the assessment.

Recommendation 5: Implement comprehensive and routine training for managers and
inspectors on the staffing model.

FAA Response: Partially concur. Initial training for managers and other ASTARS authorized
users on the staffing model has been developed and is available on the FAA Electronic Learning
Management System (eLMS), course number 27100119. This training provides initial, entry-
level knowledge for users of the ASTARS system. The course is required to be completed by
all ASTARS users prior to receiving system access. The completion certificate is submitted to
the ASTARS Manager with an access request, and eLMS maintains the training completion
record. This course was last reviewed and revised in May 2011. The next review of this course
is scheduled for January 2014.

Currently, in-depth instructions are provided within the ASTARS program with tutorials located
in the help section of the system. The ASTARS tutorials are comprehensive, and ASTARS-
authorized users are encouraged to review them as often as necessary to refresh their
knowledge. The FAA will explore the feasibility of requiring users to visit the applicable
tutorials on a regular basis. Additionally, data quality training is part of FAA Course 21423;
Flight Standards Automation Tools. This course discusses data entry quality and examples of
bad data entry.

The FAA only partially concurs with this recommendation because it does not agree that routine
training is necessary for inspectors since they do not have access to ASTARS. ASTARS is a
management tool and only management and their support staff have access to the system.
However, inspectors play a critical role in ensuring data quality and must understand this part of
their role in the daily performance of their duties. AFS intends to increase awareness of this
issue by briefing our employees. AFS expects to complete these briefings by
December 31, 2013.



Appendix. Agency Comments
                                                                                                 29


Recommendation 6: Establish a comprehensive analyst training program with guidance
clarifying their roles, responsibilities, and training needs, and establish a method to
determine an appropriate number of air carriers per analyst.

FAA Response: Concur. The FAA recognizes the need for a comprehensive analyst training
program for the Operations Research Analyst (ORA) position. The ORA is a non-management
position with the responsibility for reviewing inspection results and completing system safety
analyses. To ensure that multiple areas such as roles, responsibilities, and training needs were
included in the new ORA Course design, AFS established a training course development
workgroup. The first workgroup meeting was held in November 2012. The final course delivery
is scheduled for March 2014, after the completion of the Safety Assurance System (SAS)
automation (software) development in 2013.

By January 31, 2014, ASTARS will begin formulation of a method to determine an appropriate
number of air carriers per ORA. Once defined, this requirement will be incorporated into a
future version of the ASTARS model by December 31, 2014.

Recommendation 7: Clarify requirements and develop a process to ensure completion of
training on specific air carrier policies and procedures for inspectors who participate in the
geographic surveillance program.

FAA Response: Concur. Formal training for Inspectors begins with Initial Indoctrination at
the FAA Academy in Oklahoma City and continues via On-the-Job training and continuing on-
line training in eLMS. Policy documents outside of the ASTARS program stipulate inspector
training requirements for the geographic surveillance program.

The air carrier specific training requirement is intended for those ASIs assigned to a single
certificate holder to enhance their knowledge of all aspects of their assigned air carrier. This is
necessary to ensure that ASIs are capable of assessing the impact of changes within the air
carriers programs and procedures. This differs from the geographic program where ASIs are
assigned to accomplish en-route, spot, and ramp inspections. These inspections focus on
general regulatory and safety compliance, not on operational aspects unique to a specific carrier.
Air carrier specific training is not required to accomplish these inspections.

With the implementation of SAS, the scope of the geographic program will be extended. All
ASIs assigned to Volume 14 of the Code of Federal Regulations (CFR) Parts 121, 135, and 145
certificate holders will be trained in SAS and will be able to accomplish additional inspection
activities for these CFR parts. The SAS automation contains additional functionality to allow a
requesting office to attach supporting documentation, manual excerpts, etc., to enhance the
Geographic ASIs ability to accomplish the requested inspection activity. SAS Phase IIA key
site testing is scheduled to begin in 2014 and full operational deployment for 14 CFR Parts 121,
135, 145 is anticipated before September 30, 2015.

Attachment




Appendix. Agency Comments
                                                                                             30



                    ASTARS
           FSDO/CMO/IFO Staffing Model
               The Next Evolution

Background
The FAA developed the AVS (Aviation Safety) Staffing Tool and Reporting System (ASTARS)
to meet the Congressional mandate for AVS to implement and incorporate appropriate staffing
standards and in response to the needs identified in the National Academy of Sciences report,
Staffing Standards for Aviation Safety Inspectors. FAA Flight Standards (AFS) assembled an
integrated project team to develop this new demand-driven sufficiency staffing model. This team
included FAA representatives and the contractor support team. This team concept continues to
this day. The goals for the project are:
     Design a demand-driven staffing model for AVS using a combination of analytical
        supply/demand modeling, business process improvement, change management, and
        project management methods
     Establish an on-board supply baseline for AFS and eventually AVS
     Implement a staffing tool that automates the new staffing model and determines
        appropriate staffing requirements for AVS
     Introduce a new way to plan for the effective utilization of AVS staffing resources to
        ensure proper safety oversight

Version One of ASTARS modeled only Flight Standards District Offices (FSDO), Certificate
Management Offices (CMO) and International Field Offices (IFO). It began operating on
October 1, 2009. Since then ASTARS has been expanded to include forecasts for:
    FAA Safety Team (FAASTeam) offices
    Aircraft Evaluation Group (AEG) offices
    Aviation Safety Inspectors assigned to the Aircraft Certification Service (AIR)

ASTARS has a goal of continuing improvement. Now that ASTARS has been operating for
almost three years, it is time to take it to the next evolution.


Areas for Improvement
    Original modeling technique used was heavily dependent upon use of statistics for
     predicting the frequency of work performed based upon configuration based demand
     drivers. This was because the primary databases ASTARS needed to use did not
     originally contain data of sufficient quality to make use of a more dynamic and data-
     centric modeling approach




Appendix. Agency Comments
                                                                                              31


   Demand drivers were derived by experimentation in an effort to establish statistically
    significant relationships for 130+ CFR Part/peer group, work type and specialty
    combinations
   The resulting demand driver equations were calibrated using certificate holder
    configuration and work activity data that turned out to have numerous underlying issues
   Nominal times were derived from surveys since reliability of the LDR data was suspect
    due to overly complex charge structures and inconsistent use of the proper charge codes
    for work performed
   Model results occasionally exhibit excessive sensitivity to variations in configuration data
   Model results occasionally yield highly counter intuitive results based upon changes to
    the configuration data due to non-causality of the statistically significant relationship
   The model is not fully transparent. It is difficult to explain model results to users in terms
    they can understand
   The impact of other work performed by nonsupervisory ASIs is not forecast and is but
    poorly accounted for in the model
   AFS organization is considering making numerous changes to how work is to be
    performed by nonsupervisory ASIs. These possible changes include, but are not limited
    to:
         Implementation of the anticipated Safety Analysis System (SAS)
         Redesigning the FAASTeam concept and purpose


AFS FSDO/CMO/IFO Model Enhancement Goals
   Balance underlying principles with tractability and simplicity, while striving for
    appropriate usage of data, management judgment and feedback
   Use a combination of statistical, deterministic and judgment modeling techniques to
    increase accuracy
   Make use of improved historical LDR data from Fiscal Years 2011 and 2012
   Derive for nominal times and ranges from real data
   Inherently provide for trending to aid future projections in a manner similar to the model
    used for AIR
   Allow for significant modifications in the way FSDOs, CMOs and IFOs plan work based
    upon changes in business processes
   Leverage managerial knowledge of data in CSOP for initial certification efforts and
    subsequent impact on certificate oversight efforts
   Account for Geographic and National Resource Inspector programs
   Provide for leveraging inspectors resources to perform inspector work
   Determine the ability to incorporate indices of possible understaffing in particular offices,
    such as:
         Backlogged work
         Applicants waiting for certification. (CSOP and elsewhere)
         Work that was not performed due to having insufficient resources
         Overtime and compensatory hours charges by ASIs
         Administrative work performed by inspectors
         Inspector work performed by managers
   Provide for other items that consume a significant percentage of an inspectors
    availability, such as:


Appendix. Agency Comments
                                                                                             32


            On demand and other non-safety related work
            Travel
            Training
            Leave
      Provide for known or projected supply side staffing transitions and retention adjustments
            Individuals who are onboard and basically charged full time to training but will be
               available in subsequent years to perform as an ASI
            Fractional year contributions of ASIs
            Retirement/transfers
      Anticipate incorporating organizational plans under consideration for the following:
            Appropriate number of PIs vs. ASIs
            Specialty generalization: OPS and AW vs. OPS, MX and AV
            AC vs. GA
      Continue to include business rules for personnel other than nonsupervisory ASIs
            Organizational minimums, e.g. one manager per office, CFR Part 121 dedicated
               principals, etc.
            Policy exceptions, e.g. large HEMS, protected positions, etc.
            Management/supervisory span of control
            Other support, e. g. ASA, administrative, etc.
      Allow for fundamental variations in behavioral characteristics of different types of
       offices, i.e. FSDO vs. CMO vs. IFO
      Consider including the concept of sufficiency as a computation proxy for quality of work
       performed


Schedule for Completion of this Evolution
The schedule is a living document. It resides on the AFS ASTARS Library SharePoint site. The
URL is:
https://avssharepoint.faa.gov/afs/100/160/staf/ASAM_Library/Large%20File%20Transfer%20to%20and
%20from%20Volpe/Forms/DispForm.aspx?ID=135&Source=https%3A%2F%2Favssharepoint%2Efaa%2
Egov%2Fafs%2F100%2F160%2Fstaf%2FASAM%5FLibrary%2FLarge%2520File%2520Transfer%2520to
%2520and%2520from%2520Volpe%2FForms%2FAllItems%2Easpx%3FRootFolder%3D%252fafs%252f
100%252f160%252fstaf%252fASAM%255fLibrary%252fLarge%2520File%2520Transfer%2520to%2520a
nd%2520from%2520Volpe%252fASTARS%2520Nominal%2520Time%2520Reference%2520Documentat
ion%26View%3D%257bF28F0026%252dAB4B%252d4311%252dAD02%252dEFA073926D9F%257d&Ro
otFolder=%2fafs%2f100%2f160%2fstaf%2fASAM%5fLibrary%2fLarge%20File%20Transfer%20to%20a
nd%20from%20Volpe%2fASTARS%20Nominal%20Time%20Reference%20Documentation




Appendix. Agency Comments
